     CITY COLLEGES OF CHICAGO’S ADMINISTRATION
         OF THE FEDERAL PELL GRANT PROGRAM




                                 FINAL AUDIT REPORT




                                 Audit Control Number 05-80016
                                           July 1998




Our mission is to promote the efficient                          U.S. Department of Education
and effective use of taxpayer dollars                            Office of Inspector General
in support of American education                                 Chicago, IL
Statements that management practices need improvement, as well as other
 conclusions and recommendations in this report, represent the opinions of
  the Office of Inspector General. Determination of corrective action to be
taken will be made by appropriate Department of Education officials. This
 report may be released to members of the press and general public under
                       the Freedom of Information Act.
     City Colleges of Chicago’s Administration of the Federal Pell Grant
     Program - Audit Control Number 05-80016

Transmittal Letter/Memorandum

Executive Summary                                                     1

Audit Results                                                         3

Appendix        Background; Purpose, Objective, Scope, and
                Methodology; Statement on Management
                Controls                                             17

Exhibit A       Results of Analysis of Appeal Process Review

Exhibit B       Examples of Questioned Appeal Forms
                Related to Satisfactory Academic Progress

Exhibit C       Results of Analysis of Refund Review

Attachment Letter Transmitting Auditee Comments
                                                                                        July 23, 1999

MEMORANDUM

TO:            Greg Woods, Chief Operating Officer
               Office of Student Financial Assistance



FROM:          Richard J. Dowd
               Regional Inspector General
               for Audit, Region V

SUBJECT:       FINAL AUDIT REPORT
               City Colleges of Chicago, Chicago, Illinois
               Administration of the Federal Pell Grant Program
               ED Audit Control Number 05-80016

Attached is the final audit report on City Colleges of Chicago’s administration of the Federal Pell
Grant Program. In accordance with the Department’s Audit Resolution Directive, you have been
designated as the action official responsible for the resolution of the findings and recommendations
in this report.

If you have any questions or wish to discuss the contents of this report, please contact me at 312-886-
6503. Please refer to the above audit control number in all correspondence relating to this report.



Attachment
                                                                                        July 23, 1999

Dr. Wayne Watson, Chancellor
City Colleges of Chicago
226 West Jackson
Chicago, Illinois 60606

Dear Dr. Watson:

Attached is our Final Audit Report entitled, “City Colleges of Chicago’s Administration of the
Federal Pell Grant Program.” If you have any additional comments or information that you believe
may have a bearing on the resolution of this audit, you should send them directly to the following
Education Department official, who will consider them before taking final Departmental action on
the audit:

               Greg Woods, Chief Operating Officer
               Office of Student Financial Assistance
               U.S. Department of Education
               Regional Office Building, Room 4004
               7th and D Streets, S.W.
               Washington, D.C. 20202-5340

Office of Management and Budget Circular A-50 directs Federal agencies to expedite the resolution
of audits by initiating timely action on the findings and recommendations contained therein.
Therefore, receipt of your comments within 35 days would be greatly appreciated.

In accordance with the Freedom of Information Act (Public Law 90-23), reports issued to the
Department’s grantees and contractors are made available, if requested, to members of the press and
the general public to the extent information contained therein is not subject to exemptions in the Act.

                                               Sincerely,



                                               Richard J. Dowd
                                               Regional Inspector General
                                               for Audit - Region V

Attachment
City Colleges of Chicago [CCC] generally administered the Federal Pell Grant Program [Pell] during
the 1996-97 award year in accordance with applicable program requirements. However, CCC: (1)
inconsistently applied satisfactory academic progress [SAP] standards, and (2) did not make Pell
refunds at three colleges, and did not calculate and refund Pell accurately and timely at four colleges.
The Office of Student Financial Assistance [OSFA] should instruct CCC to: (1) refund $254,999 of
Pell disbursed to ineligible students; (2) refund $308,106 unless CCC can provide supporting
documentation for waiving its SAP standards; (3) review all appeals not included in our samples in
the 1996-97 award year and subsequent award years, and refund Pell disbursed to ineligible students;
(4) improve the appeal process; (5) refund $21,638 for unpaid and incorrectly calculated 1996-97
Pell refunds; (6) pay $1,963 for costs the U.S. Department of Education [ED] incurred as a result of
CCC’s failure to pay refunds within regulatory time limits; (7) pay all refunds due from the three
colleges that did not calculate 1996-97 Pell refunds, exclusive of the amounts we calculated for these
three colleges; and (8) recalculate all Pell refunds not included in our samples for the 1996-97 award
year and refund the amount due to ED.

CCC did not agree with the amount of liability that should be established because it did not correctly
apply its SAP standards, but generally agreed with our finding pertaining to refunds. CCC agreed
with many of Office of Inspector General’s [OIG] recommendations although it suggested some
changes. We have considered CCC’s comments and made some minor revisions to the report
including some recommendations. We also agreed to remove our recommendations that OSFA fine
CCC as permitted under 34 Code of Federal Regulations [CFR] 668, Subpart G. CCC’s response
to the draft report included voluminous documentation. Therefore, we have attached the transmittal
letter, but not the documentation to the report. Instead, we are forwarding the documentation to the
action official along with the final report.
______________________________________________________________________________

                                       CCC did not consistently apply SAP standards during the
  CCC Did Not                          appeal process. CCC waived its SAP standards despite
  Consistently Apply                   evidence that students’ appeals were inappropriate. As a
  Standards for                        result, CCC disbursed $254,999 of 1996-97 Pell funds to
  Determining SAP                      ineligible students. CCC also disbursed $308,106 of 1996-97
                                       Pell funds despite not having sufficient evidence to support its
                                       decisions to waive its SAP standards. These waivers affected
                                       students’ eligibility in subsequent award years as well.

                                       We recommend that OSFA instruct CCC to: (1) refund
                                       $254,999; (2) provide support for or refund $308,106; (3)
                                       review all appeals not included in our samples in the 1996-97
                                       award year and subsequent award years, and refund Pell
                                       disbursed to ineligible students; and (4) improve the appeal
                                       process.


  CCC Failed to Make
                                       Three of CCC’s seven colleges did not refund 1996-97 Pell
  Pell Refunds and Did
                                       for any students who withdrew or dropped out prior to the end
  Not Make Pell Refunds
                                       of a semester or payment period. The remaining four colleges
  Timely and Accurately

FINAL AUDIT REPORT                               Page 2               ED-OIG-AS, Audit Control Number 05-80016
    did not refund 1996-97 Pell within regulatory time limits, did not always accurately calculate
    refunds, and in some cases failed to refund Pell.

                                     We recommend that OSFA instruct CCC to: (1) refund
                                     $21,638 for unpaid and incorrectly calculated 1996-97 Pell
                                     refunds; (2) pay $1,963 for costs ED incurred as a result of
                                     CCC’s failure to pay refunds within regulatory time limits; (3)
                                     pay all refunds due from the three colleges that did not
                                     calculate 1996-97 Pell refunds, exclusive of the amounts we
                                     calculated for these three colleges; and (4) recalculate all Pell
                                     refunds not included in our sample for the 1996-97 award
                                     year and refund the amount due to ED.




FINAL AUDIT REPORT                            Page 3               ED-OIG-AS, Audit Control Number 05-80016
CCC generally administered Pell during the 1996-97 award year in accordance with applicable
program requirements. However, CCC: (1) inconsistently applied SAP standards, and (2) did not
make Pell refunds at three colleges, and did not calculate and refund Pell accurately and timely at
four colleges. OSFA should instruct CCC to: (1) refund $254,999 of Pell disbursed to ineligible
students; (2) refund $308,106 unless CCC can provide supporting documentation for waiving its
SAP standards; (3) review all appeals not included in our samples in the 1996-97 award year and
subsequent award years, and refund Pell disbursed to ineligible students; (4) improve the appeal
process; (5) refund $21,638 for unpaid and incorrectly calculated 1996-97 Pell refunds; (6) pay
$1,963 for costs ED incurred as a result of CCC’s failure to pay refunds within regulatory time
limits; (7) pay all refunds due from the three colleges that did not calculate 1996-97 Pell refunds,
exclusive of the amounts we calculated for these three colleges; and (8) recalculate all Pell refunds
not included in our samples for the 1996-97 award year and refund the amount due to ED.



        CCC Did Not Consistently Apply Standards for
                    Determining SAP

CCC did not consistently apply SAP standards during the appeal process. CCC waived its SAP
standards despite evidence that students’ appeals were inappropriate. As a result, CCC disbursed
$254,999 of 1996-97 Pell funds to ineligible students. CCC also disbursed $308,106 of 1996-97 Pell
funds despite not having sufficient evidence to support its decisions to waive its SAP standards.
These waivers affected students’ eligibility in subsequent terms as well. For details of the finding
for each college, see Exhibit A.

We recommend that OSFA instruct CCC to: (1) refund $254,999; (2) provide support for or refund
$308,106; (3) review all appeals not included in our samples in the 1996-97 award year and
subsequent award years, and refund Pell disbursed to ineligible students; and (4) improve the appeal
process.


 CCC Waived SAP                       CCC waived its SAP standards and disbursed $254,999 of
 Standards for Ineligible             1996-97 Pell grant funds to ineligible students in our samples.
 Students and Could Not               CCC also disbursed $308,106 of 1996-97 Pell despite not
 Support Appeal                       having sufficient evidence to support the decisions to waive
 Decisions                            its SAP standards. However, CCC reinstated students’
                                      eligibility based on their appeals. These decisions affected
                                      students’ eligibility in subsequent terms as well.

                                      According to 34 CFR 668.32(f), a student must maintain SAP
 Students Must Maintain
                                      as defined by the institution’s published standards to
 SAP
                                      participate in programs authorized by Title IV of the Higher


FINAL AUDIT REPORT                              Page 4              ED-OIG-AS, Audit Control Number 05-80016
                         Education Act of 1965, as amended [HEA]. Additionally, 34
                         CFR 668.16(e) requires institutions to establish, publish and
                         apply reasonable standards for measuring whether an
                         otherwise eligible student is maintaining SAP. Per 34 CFR
                         668.16(e)(5), for these standards to be considered reasonable,
                         they must, among other things, provide specific procedures
                         under which a student may appeal a determination that he/she
                         is not maintaining SAP. Per 34 CFR 668.16(e)(3), an
                         institution must apply its SAP standards consistently.

CCC’s Standards Define   CCC’s SAP standards require that students:
SAP
                         1. Maintain a minimum cumulative grade point average
                            [GPA] based on a specified range of cumulative
                            registered hours.

                         2. Pass at least 75 percent of their college level credit hours
                            (67 percent part-time) as program credit hours each
                            semester or term.

                         3. Pass at least 75 percent of their remedial credit hours (67
                            percent part-time) each semester or term.

                         4. Complete their requirements for an advanced certificate
                            or associate degree within 150 percent of the length of
                            their academic programs.

 CCC’s SAP Standards     If a student fails to meet any of the first three standards, CCC
 Permit Waiving SAP      places him/her in a warning status for one semester. CCC
 Standards for           also places the student on warning status when he/she comes
 Extenuating             within 12 semester hours of the 150 percent limit. If a student
 Circumstances or        fails to meet these standards after the warning period, CCC
 Administrative Error    places a financial aid hold on the student. CCC will lift this
                         hold if the student files an appeal based on an extenuating
                         circumstance or an administrative error that occurred in the
                         semester the hold was placed.

                         CCC’s standards define extenuating circumstances as the
                         death of a relative/guardian, an injury or illness of the student
                         or relative/guardian, or other documented circumstance
                         including a personal circumstance, a change in educational
                         goals, or a change in employment status. According to City
                         Colleges of Chicago Guidelines For The Review, Resolution,
                         and Follow-Up For Students In Exclude and Academic
                         Warning Status, [Review Guidelines] students must provide
                         documentation of extenuating circumstances with their
                         appeals. Other CCC standards state that an administrative

FINAL AUDIT REPORT                Page 5               ED-OIG-AS, Audit Control Number 05-80016
                         error occurs when CCC’s computer system miscalculates
                         GPA, registered hours, or successfully completed hours.

                         From a universe of 7,055 financial aid holds, we randomly
 CCC Waived SAP          selected and reviewed 786 appeal forms to evaluate the appeal
 Standards for Invalid   process. We questioned 330 decisions to waive the SAP
 Reasons                 standards because none of the bases for the appeals met
                         CCC’s definitions of “extenuating circumstances” as
                         published in the City Colleges of Chicago Student Policy
                         Manual and Satisfactory Progress Documentation Guidelines
                         for the Appeal Process. For example, CCC lifted 88 holds
                         although the appeals had no stated reason and 43 holds based
                         on a rationale not covered by CCC’s standards. As a result,
                         CCC disbursed $254,999 of Pell to ineligible students.

                         The following are examples (see Exhibit B for specifics) of
                         the bases that CCC used to waive its SAP standards, but the
                         bases for the students’ appeals did not meet the definition of
                         extenuating circumstances:

                         C   Wilbur Wright College officials lifted a hold because a
                             student claimed she did not know she was in an academic
                             program and did not do well because she did not study
                             enough.
                         C   Kennedy-King College officials lifted a hold because a
                             student stated he was not really in college for
                             development. He was living with his sister who insisted
                             he attend school in order to live there.
                         C   Harry S. Truman College officials lifted a hold because a
                             student stated he did poorly because he was “apsent” (sic)
                             from class many times but would do better next term.
                         C   Richard J. Daley College officials lifted a hold because a
                             student stated his lack of studying, note taking, and not
                             coming to school on time caused his unsatisfactory
                             performance.
                         C   Harold Washington College officials lifted a hold placed
                             after the Spring 1996 semester because a student stated
                             that in 1981 she was not interested in attending college
                             and her mother was ill at that time.
                         C   Olive-Harvey College officials lifted a hold because a
                             student said he was failing and just did not go to class.
                         C   Malcolm X College officials lifted a hold because a
                             student stated she dropped a class because she did not
                             have a book and could not get a babysitter.




FINAL AUDIT REPORT                Page 6              ED-OIG-AS, Audit Control Number 05-80016
                             CCC did not provide sufficient evidence to support the
 CCC Waived Its SAP          decisions to lift 372 holds. For example, CCC officials did
 Standards Without           not provide appeal forms to us for 131 of these holds. Also,
 Support for Its Decisions   CCC officials at individual campuses lifted 102 holds because
                             of administrative errors but did not provide us with
                             documentation detailing the errors or showing the correction.
                             As a result CCC disbursed $308,106 of Pell without adequate
                             support for its decision.

                             We believe CCC did not comply with the SAP regulations
                             because of significant weaknesses in management controls
                             over the appeal review process. As a result, CCC disbursed
                             Pell to ineligible students, and could not support its decisions
                             to waive its SAP standards for other students. Additional
                             details on these weaknesses are addressed in the Statement on
                             Management Controls in the Appendix.

 RECOMMENDATIONS             We recommend that OSFA instruct CCC to:

                             1. Refund $254,999 of Pell disbursed to ineligible students
                                for the 1996-97 award year;

                             2. Provide adequate support or refund $308,106 of Pell
                                disbursed for the 1996-97 award year;

                             3. Review all appeals not included in our samples in the
                                1996-97 award year and subsequent award years, have an
                                independent certified public accounting firm attest to the
                                results of this review, and refund Pell disbursed to
                                ineligible students.

                             4. Improve its appeal process. The following suggestions
                                may improve CCC’s appeal process. CCC should
                                consider:

                             C   Updating the Satisfactory Progress Documentation
                                 Guidelines for the Appeal Process, last published in 1988.
                             C   Requiring that the central office provide training to the
                                 campus trainers who will then train all employees with
                                 authority to lift holds to ensure uniformity of the appeal
                                 process.
                             C   Ensuring that officials at the individual colleges do not
                                 approve appeals based on administrative errors that
                                 originate at the individual college unless they document
                                 the source of the mistakes, record the appropriate program
                                 codes on the appeal form, and correctly calculate the
                                 appropriate adjustment.

FINAL AUDIT REPORT                    Page 7               ED-OIG-AS, Audit Control Number 05-80016
                      C   Ensuring that officials at the individual colleges do not
                          approve appeals based on administrative errors that
                          originate at the central office unless they document receipt
                          of written notification from central office that it has
                          corrected such errors.
                      C   Ensuring that officials do not accept or process appeal
                          forms that are not signed by students, and ensure that no
                          holds are lifted unless an authorized official signs the
                          appeal forms.
                      C   Specifying in the standards which CCC officials have the
                          authority to lift holds.
                      C   Reviewing prior appeals to determine if the students
                          followed recommendations on those appeal forms when
                          considering current appeals.
                      C   Requiring that officials prepare the completion agreement
                          sections on all appeal forms to demonstrate that they
                          informed students on how to maintain SAP.
                      C   Requiring the same version of appeal forms be used
                          throughout the CCC system for each type of hold.
                      C   Requiring internal audit staff to perform annual checks on
                          the appeal process at each college.


                      CCC did not agree on the amount of liability that should be
 CCC’s COMMENTS       established as a result of ineligible students receiving Pell.
 AND OIG’S RESPONSE   Our draft audit report recommended that OSFA establish a
                      potential liability of $565,392. CCC stated that the liability
                      should be reduced to $296,550 for several reasons. We
                      reviewed CCC’s comments and the additional documentation
                      it submitted in an effort to rebut deficiencies for specific
                      students. With a few minor exceptions, we found no basis to
                      change the finding. We did, however, revise some
                      recommendations. The specific comments and our response
                      [in italics] to each comment are as follows:

                      1. CCC stated that federal literature clearly indicates that 2-
                         year institutions with graduated standards do not need to
                         collect third-party documentation to corroborate claims of
                         extenuating circumstances for academic exclude petitions
                         because the regulations do not apply to such institutions.

                          The regulations established in 34 CFR 668.32(f), state
                          that a student must maintain SAP as defined by the
                          institution’s published standards to participate in
                          programs authorized by the HEA. This requirement
                          applies to all students without regard to the type of
                          institution in which he/she is enrolled. Additionally, 34

FINAL AUDIT REPORT             Page 8               ED-OIG-AS, Audit Control Number 05-80016
                     CFR 668.16(e) requires all institutions to establish,
                     publish and apply reasonable standards for measuring
                     whether an otherwise eligible student is maintaining SAP.
                     For these standards to be considered reasonable, they
                     must, among other things, provide specific procedures
                     under which a student may appeal a determination that
                     he/she is not maintaining SAP [34 CFR 668.16(e)(5)].
                     They must also provide for consistent application of
                     standards to all students within categories such as part-
                     time students and full-time students [34 CFR
                     668.16(e)(3)].

                     At the end of our survey phase, we discussed the matter of
                     students receiving Pell while not maintaining SAP. At
                     that time, we stated that we did not believe any student
                     was denied an appeal for reinstatement of eligibility, and
                     we were going to perform additional tests to determine if
                     the CCC’s procedures for reviewing student appeals were
                     ensuring that only eligible students received Pell. At that
                     time, CCC officials gave us two documents to use in our
                     testing: the Review Guidelines; and SATISFACTORY
                     PROGRESS DOCUMENTATION GUIDELINES FOR
                     THE APPEAL PROCESS CITY COLLEGES OF
                     CHICAGO FOR ADMINISTRATION/ FACULTY/
                     STAFF. We used these documents as our basis for testing
                     the controls over appeal process.

                     The Review Guidelines, which appear to comply with the
                     regulations, state that all students must submit a written
                     statement or petition requesting readmission if they have
                     been excluded from enrollment because of poor
                     scholarship. The Review Guidelines further state:

                        “The student must provide documentation of
                        extenuating circumstances claimed by filing such
                        material in the Admissions and/or Registrar’s office.
                        Unless all of the above materials have been received
                        by the Admissions and/or Registrar’s office . . . the
                        request for readmission will not be considered.”

                     In its response, CCC refers to the City Colleges of
                     Chicago Academic Policy (March 1984) as the basis for
                     its appeal process. They did not provide us a copy of that
                     document. However, in the City Colleges of Chicago
                     Student Policy Manual, CCC states that, “Excluded
                     students must petition the college at which they intend to
                     register. . . . A readmission petition may be approved by

FINAL AUDIT REPORT        Page 9               ED-OIG-AS, Audit Control Number 05-80016
                        the college administration for good and sufficient
                        reasons.” This document does not define the term “good
                        and sufficient reasons,” and does not require students
                        who completed less than four semesters (equivalent to two
                        academic years of attendance) to submit documents to
                        support the basis of the appeal. However, this same
                        document requires that students who are excluded after
                        the end of five semesters:

                            “ . . . must complete a petition for readmission
                            that is accompanied with documents verifying the
                            extenuating circumstances that impaired their
                            cumulative GPA. Acceptable causes are (1) the
                            death of a relative and/or guardian of the student;
                            (2) an injury or illness of the student and/or one of
                            the student’s guardians, children and/or
                            relatives; or (3) other documented special
                            circumstances approved by the college. If their
                            petition and corroborative documentation
                            [emphasis added] are approved, they may register
                            for classes at the same college or apply for
                            enrollment at any of the other City Colleges of
                            Chicago and receive financial aid if eligibility has
                            been determined.”

                        We do not believe the process in the City Colleges of
                        Chicago Student Policy Manual complies with the
                        regulations in 34 CFR 668.16(e)(3). To comply, CCC
                        should consistently apply the same review process
                        standards to all students; i.e., require all students who file
                        appeals to submit supporting documentation for the
                        extenuating circumstances. Therefore, we have not
                        changed our finding.

                     2. CCC stated that OIG auditors cited several schools for
                        failing to collect re-entry petitions for students who did
                        not need to submit petitions. They said the City Colleges
                        of Chicago Student Policy Manual indicates that students
                        who previously submitted a successful appeal to re-enter
                        CCC did not need to submit a new petition if they did not
                        achieve the required cumulative, minimum grade point
                        average, but earned a 2.25 grade point average in the
                        preceding term. However, those students who had 46 or
                        more credit hours in similar circumstances needed to re-
                        petition, regardless of the grade point average they earned
                        in the previous term.


FINAL AUDIT REPORT           Page 10               ED-OIG-AS, Audit Control Number 05-80016
                        We cited CCC for failing to provide appeal forms for all
                        of the students we tested. We did not previously
                        determine if students had 2.25 term grade point averages
                        prior to requesting the appeal forms We requested
                        appeal forms to determine if CCC properly determined
                        that students who had exclude holds placed on their
                        accounts were eligible for readmission and were eligible
                        for financial aid.. At no time did CCC officials tell us that
                        the reason an appeal form was not provided was because
                        the student had a 2.25 grade point average in the
                        previous term and did not need to submit an appeal.
                        Regardless, 34 CFR 668.16(e)(3) requires institutions to
                        consistently apply standards for determining satisfactory
                        academic progress. Additionally, the Review Guidelines
                        that CCC officials provided to us at the end of the survey
                        phase require all students with exclude holds to submit
                        appeals showing extenuating circumstances, and provide
                        documentation to support the basis of their appeals.
                        These guidelines do not state that students who had
                        exclude holds but had 2.25 term grade point averages
                        need not appeal their holds.

                     3. CCC said we should rescind from our finding those
                        students who did not complete 75 percent of their courses
                        in each term, but came within 3 hours of meeting this
                        completion rate. They indicated that the 3-hour difference
                        was a cushion deliberately created when CCC decided to
                        adopt a 75 percent completion rate on June 20, 1994.
                        CCC said that, mathematically, students need to complete
                        66.6 percent of the college level courses in which they are
                        enrolled each term to ensure they complete their academic
                        programs within 150 percent of the minimum length. The
                        3-hour cushion is the difference between 66.6 percent and
                        the 75 percent requirement in the student policy manual.
                        CCC commented that we should not cite those students
                        whose completed hours met the unpublished 3-hour
                        cushion as an adverse finding.

                        CCC’s policy states that all full-time students must
                        complete 75 percent of their college level courses in each
                        term. The policy does not document a 3-hour cushion
                        that effectively reduces the percent to 66.6. Under the
                        written policy, students who do not complete 75 percent
                        of their college level courses are not maintaining
                        satisfactory progress. By using the cushion, CCC is
                        applying an unpublished policy that is less stringent than
                        described in its published guidelines and is not complying

FINAL AUDIT REPORT           Page 11              ED-OIG-AS, Audit Control Number 05-80016
                        with the regulations. Under 34 CFR 668.16, institutions
                        must not only establish and apply reasonable standards
                        for determining if students are maintaining satisfactory
                        academic progress, they must also publish those
                        standards.

                     4. CCC stated that the Student Program Administration
                        System [SPAS] computer system erroneously calculated
                        the total hours some students completed, which resulted
                        in an incorrect determination that these students were not
                        maintaining satisfactory progress. However, several
                        deans and registrars have manually determined the correct
                        value of the program hours that SPAS should have
                        displayed at the time of the appeal.

                        CCC failed to attach supporting documentation showing
                        that deans and registrars recalculated completed hours to
                        reach the conclusion that students were maintaining
                        satisfactory academic progress. In many instances,
                        student appeal forms had handwritten comments implying
                        a possible error in the SPAS programming. Yet there was
                        no documentation to show the magnitude of the error, or
                        to support that an error actually occurred. CCC’s
                        response does not rebut the finding.

                     5. CCC said the OIG should drop from the audit report any
                        part of our finding that pertains to missing student
                        signatures on appeal forms. It stated that some problems
                        do not need student signatures to be rectified.

                        Our finding does not indicate that student signatures are
                        necessary to rectify problems. The matter of missing
                        student signatures addresses weaknesses in CCC’s
                        controls over the appeal process. When an appeal form
                        is missing a student’s signature, CCC cannot support
                        that the student actually submitted the appeal form.
                        Therefore, we do not agree with CCC’s argument that the
                        issue should be removed from the report.

                     6. CCC stated that we included inappreciable practice
                        violations in our audit report, and that these matters
                        should be removed.

                        Our audit findings all represent material noncompliance
                        with applicable regulations, or significant weaknesses in
                        CCC’s controls over the appeal process.


FINAL AUDIT REPORT           Page 12              ED-OIG-AS, Audit Control Number 05-80016
                     7. CCC stated that we should remove the examples of
                        exclude petitions in Exhibit B because the federal
                        regulations and college policy allow for re-admissions
                        based solely on undocumented extenuating circumstances.
                        CCC stated that it has the regulatory freedom to impose
                        the petition process on academic excludes after they have
                        attempted 46 credit hours, and CCC incorporates the
                        appeal process as an academic advising and student
                        counseling provision for students who are victims of
                        extenuating circumstances. CCC said that our featuring
                        copies of petitions filed by students who were in dire need
                        of tutorial, counseling, and/or academic advising is
                        malicious and does not prove criminal and/or incompetent
                        violations of the regulations.

                         We agree that CCC has the regulatory freedom to
                         establish, publish, and apply satisfactory academic
                         progress policies that are reasonable. CCC also must
                         consistently apply these policies to categories of students.
                         The copies of appeal forms in Exhibit B merely represent
                         examples of appeal forms we reviewed in our audit. We
                         concluded that these appeal forms did not represent
                         extenuating circumstances to explain why the students did
                         not maintain satisfactory academic progress, yet CCC
                         lifted the holds and permitted these students to participate
                         in Pell. Because we removed any item that may have
                         identified the students who filed the appeals, their
                         inclusion is not malicious. Additionally, we did not state
                         that we believed these items represented any criminal or
                         incompetent violations by anyone at CCC. Thus, we did
                         not remove them from Exhibit B.

                     8. CCC stated that our report did not provide any basis for
                        our conclusion that it was too lenient in determining what
                        is an extenuating circumstance. CCC added that the
                        number of holds a student has had during enrollment is
                        not, by itself, an indicator that it was too lenient, and that
                        references to the average number of holds per student
                        should be removed.

                         Upon consideration of CCC’s comments, we have
                         changed the wording pertaining to this matter in our
                         Statement on Management Controls by saying that “. . .
                         CCC’s officials may have been [emphasis added] too
                         lenient when determining what is an extenuating
                         circumstance.”


FINAL AUDIT REPORT            Page 13              ED-OIG-AS, Audit Control Number 05-80016
                                      9. CCC suggested several wording changes to the
                                         recommendations included in this finding, and disagreed
                                         with our recommendation in the Draft Audit Report that
                                         OSFA use fines to encourage CCC to attain compliance
                                         with applicable regulations. It stated that, with the
                                         exception of the findings in the Draft Audit Report, OIG
                                         had concluded that CCC had generally administered Pell
                                         in accordance with applicable program requirements.
                                         CCC stated that, because there was no criminal conduct
                                         by its officials, and because no previous audits have
                                         disclosed these findings, fines are not necessary to bring
                                         CCC into compliance.

                                          Upon review of CCC’s response, we have removed the
                                          recommendation to fine CCC from the audit report and
                                          have made wording changes where we believed them to
                                          be appropriate.



  CCC Failed To Make Pell Refunds and Did Not Make
         Pell Refunds Timely and Accurately

Three of CCC’s seven colleges did not refund 1996-97 Pell for any students who withdrew or
dropped out prior to the end of a semester or payment period. The remaining four colleges did not
refund 1996-97 Pell within regulatory time limits, did not always accurately calculate refunds, and
in some cases failed to refund Pell. For details of the finding for each college, see Exhibit C.

We recommend that OSFA instruct CCC to: (1) refund $21,638 for unpaid and incorrectly calculated
1996-97 Pell refunds; (2) pay $1,963 for costs ED incurred as a result of CCC’s failure to pay
refunds within regulatory time limits; (3) pay all refunds due from the three colleges that did not
calculate 1996-97 Pell refunds, exclusive of the amounts we calculated for these three colleges; and
(4) recalculate all Pell refunds not included in our samples for the 1996-97 award year and refund
the amount due to ED.


                                      Officials at Richard J. Daley, Kennedy-King, and Olive-
 CCC Failed to Make Pell              Harvey Colleges did not calculate and refund 1996-97 Pell for
 Refunds and Did Not                  students     who      withdrew        or    dropped      out
 Make Pell Refunds                    prior to the end of a semester or payment period. The
 Timely and Accurately                remaining four colleges did not refund 1996-97 Pell within
                                      regulatory time limits, did not always accurately calculate
                                      refunds, and in some cases failed to refund Pell.




FINAL AUDIT REPORT                             Page 14             ED-OIG-AS, Audit Control Number 05-80016
                          According to 34 CFR 668.22(j)(4), an institution shall pay a
 Regulations Establish
                          refund that is due within 30 days after a student officially
 Time Frame for
                          withdraws or is expelled, or within 30 days from the date in
 Refunding Pell
                          which the institution determines that the student has dropped
                          out. Also, 20 United States Code @ 1097(a) states that any
                          person who knowingly and willfully fails to refund any funds
                          under the HEA may be subject to criminal penalties.

 Three Colleges Did Not   For the three colleges that failed to calculate and refund Pell,
 Calculate Refunds        we selected a random sample of 69 students from 216
                          students listed on each college’s “Prospective Refunds and
                          Repayments Reports” for the Fall 96 and Spring 97 semesters.
                          We calculated that CCC owed $16,751 in refunds for these 69
                          students. Additionally, we determined that ED incurred
                          financing costs of $1,392 (simple interest at applicable U.S.
                          Treasury Rates) as a result. We calculated this cost based on
                          the time between each refund’s due date and October 31,
                          1998. Our field work ended on October 27, 1998, so we
                          decided to use the October 31 date to calculate interest
                          through the end of the month. If CCC had not paid the
                          refunds by this date, then ED incurred additional costs.

 Four Colleges            For the remaining four colleges, we randomly selected 114
 Miscalculated Refunds    students from 343 listed in each college’s Prospective
                          Refunds and Repayments Reports for the Fall 96 and Spring
                          97 semesters. We found that CCC failed to calculate refunds
                          for 19 of these students totaling $4,887. For the remaining 96
                          students, CCC miscalculated refunds for 38, resulting in a net
                          overpayment of $462. We also found that CCC took an
                          average of 91 days to refund Pell, resulting in ED incurring
                          financing costs of $571 as of October 31, 1998. For those
                          refunds that CCC made, financing costs are based on the time
                          between the date the refund was due and the date CCC posted
                          the refund to the students’ accounts.

                          We recommend that OSFA instruct CCC to:
 RECOMMENDATIONS
                          1. Refund $21,638 of 1996-97 Pell;

                          2. Pay $1,963 for costs ED incurred;

                          3. Pay all refunds due from the three colleges that did not
                             calculate 1996-97 Pell refunds, exclusive of the amounts
                             we calculated in our samples; and

                          4. Recalculate all Pell refunds not included in our sample for
                             the 1996-97 award year.

FINAL AUDIT REPORT                 Page 15              ED-OIG-AS, Audit Control Number 05-80016
                                        An independent certified public accounting firm should attest
                                        to CCC’s results for recommendations 3 and 4 above.

                                        CCC disagreed with three of the refunds included in the
 CCC’s COMMENTS                         amount shown in the draft report. They stated that, for two of
 AND OIG’S RESPONSE                     the refunds, OIG auditors erred by not considering excess aid
                                        applied to charges from prior terms as aid paid to the student.
                                        CCC stated that, in both cases, the students permitted CCC to
                                        apply excess aid over tuition and fees to prior charges. For
                                        the third refund, CCC stated the OIG auditors erred because
                                        we overstated tuition and fees by $20, thereby overstating the
                                        refund due by $5. Also, as stated above, CCC disagreed with
                                        our recommendation to establish a fine to ensure compliance
                                        with the regulations.

                                        We reviewed the amounts disputed by CCC and agreed with
                                        its position. We have amended the report to show that the
                                        total errors resulted in a net overpayment of $462, instead of
                                        a net underpayment of $186. We have also reduced the
                                        recommended cost to be recovered for late payment of
                                        refunds related to the three refunds. Finally, we removed the
                                        recommendation that OSFA fine CCC to bring it into
                                        compliance.



                                       Other Matters


CCC’s assessment centers did not provide test results to The College Board, the publisher of the test
it used to determine ability to benefit [ATB] during the 1996-97 Pell award year. Additionally,
Harold Washington College’s assessment center allowed applicants to take the ATB test twice in a
calendar year without seeking prior written permission from the Dean of Student Services.

According to 34 CFR 668.152(b)(2), if an assessment center scores an ATB test, the center must
provide annually to the test publisher all copies of completed tests or a report listing all test-takers’
scores. The College Board requires assessment centers to submit results. Additionally, CCC’s
District Assessment and Placement Program Procedures Manual states that if an applicant fails an
ATB test, the applicant must wait one year to retake the test unless he/she receives written
permission from the Dean of Student Services.




FINAL AUDIT REPORT                               Page 16               ED-OIG-AS, Audit Control Number 05-80016
                                                                                                 Appendix




CCC is a community college district established in 1911. The seven colleges that make up CCC are
Richard J. Daley College, Kennedy-King College, Malcolm X College, Olive-Harvey College, Harry
S. Truman College, Harold Washington College, and Wilbur Wright College. The North Central
Association of Colleges and Schools accredits the colleges as public institutions. The Illinois
Community College Board licensed CCC and the Commission on Institutions of Higher Education
accredited CCC during the 1996-97 audit period.

CCC participated in the Pell program during the period July 1, 1996 through June 30, 1997. Title
IV of the HEA authorized this program. The regulations contained in Title 34 of the CFR, Parts 600,
668, and 690 regulate the institutional eligibility, student assistance general provisions, and specific
requirements of the Pell program. All regulatory citations in the report are to the codification in
effect as of July 1, 1996.

CCC accounting records show that it disbursed $20,979,117 in Pell on behalf of 15,300 students in
the 1996-97 award year.




The purpose of our audit was to determine whether CCC administered the Pell program according
to laws and regulations authorized by Title IV of the HEA. Our overall objectives included
examining: (1) internal controls and the reliability of computer-processed data, (2) institutional and
student eligibility, (3) cash management and financial responsibility, and (4) overall administration
and compliance with Pell program requirements. Our specific objectives included reviewing and
evaluating: (1) satisfactory academic progress and CCC’s appeal process, (2) refund accuracy and
timeliness, and (3) ATB test reporting procedures. Our audit covered the July 1, 1996 through June
30, 1997 award year. With respect to the reliability of CCC’s computer processed data, we
extensively relied on the data contained in CCC’s computer system. Our review of system controls
and security cast doubts on the data’s validity. However, when these data are viewed in context with
other available evidence, we believe the opinions, conclusions, and recommendations in this report
are valid.

To achieve the purpose and objectives of our audit we reviewed: written operating policies,
procedures, and guidelines covering enrollment, eligibility (institutional and student), refunds,
attendance, verification, ATB testing, and Pell draw downs and distributions; the most recent A-133
audit reports and related working papers; state licensing and accrediting agency documents; college
catalogs; accounting and administrative records and procedures created and/or maintained by CCC
including bank and Pell draw down reports; Pell budgets; Institutional Participation and Oversight
Service (IPOS) files and program review reports; organizational charts; Pell grant data retrieved from
National Student Loan Data System; participation agreements with ED; SAP appeals, and selected
student files.

We also interviewed CCC officials, ED regional personnel, The College Board officials, and CCC’s
independent public accountant. We conducted the field work at the individual colleges and at CCC’s

FINAL AUDIT REPORT                              Page 17               ED-OIG-AS, Audit Control Number 05-80016
                                                                                                 Appendix


central office in Chicago, Illinois from June 23, 1998 to October 26, 1998. We did additional audit
work in our office from October 27, 1998 to February 12, 1999. We conducted our audit in
accordance with government auditing standards appropriate to the scope described above.




As part of our audit, we made an assessment of CCC’s controls over the Pell program. Specifically,
we reviewed CCC’s policies, procedures and practices applicable to the Pell program. The purpose
of our assessment was to determine the level of control risk; that is, the risk that material errors,
irregularities, or illegal acts may occur. The control risk assessment was performed to assist us in
determining the nature, extent, and timing of substantive tests needed to accomplish our audit
purpose and objectives.

To make the assessment, we identified and classified the significant management controls into the
following categories: institutional eligibility, program eligibility, student eligibility, cash
management, and file maintenance. Because of inherent limitations, a study and evaluation made
for the purpose described above would not necessarily disclose all material weaknesses in the control
structure. However, we identified several material weaknesses that adversely affected CCC’s ability
to administer the Pell program. These weaknesses specifically affected CCC’s controls over its
processes for (1) reviewing and granting student appeals after they have lost eligibility based on
failure to maintain SAP, and (2) calculating and making refunds. The weaknesses specific to the
refund process are fully disclosed in the second finding of this report. The weaknesses related to the
appeal process are discussed in general terms in the first finding of this report, and more specifically
below. We found that CCC’s controls did not prevent the following from occurring:

1.   CCC accepted and processed 38 of 786 appeal forms that lacked student signatures. Without
     signatures, we cannot be certain the students actually filed the appeal.

2.   CCC approved 23 of 786 appeal forms without signing them. Without signatures, we do not
     know who made the decisions, and whether they had the authority to make them.

3.   Officials at each college decided who had the authority to approve appeals because CCC’s
     standards do not address the issue. For example, at Olive-Harvey College the Registrar’s Office
     approves appeals, but at Harold Washington College, the Student Services Office approves
     appeals. We believe CCC’s standards should specify who should have this authority to ensure
     uniformity.

4.   Approving officials did not attach required computer printouts as part of the support for waiving
     the SAP standards. CCC’s standards require such documentation to be attached to the appeal
     form because CCC’s computer system is a continually updated database. This information is
     needed to evaluate the basis of an appeal and to document the student’s status at the time of the
     appeal. A change in educational programs or an administrative error cannot be supported
     without this documentation. While CCC officials may have reviewed this information at the
     time of the appeal, their failure to attach the documentation to the appeal form does not provide
     historical evidence to support their decision.


FINAL AUDIT REPORT                               Page 18              ED-OIG-AS, Audit Control Number 05-80016
                                                                                                  Appendix


5.   Approving officials may not have considered students’ prior holds when reviewing current
     appeals. Students in our samples had an average of approximately 4.5 holds placed on their
     financial aid during their enrollment in CCC (as of December 1998). One student had 22 holds
     during his enrollment. Thus, CCC officials had to lift 21 holds because new holds cannot be
     placed until old holds are released. Per CCC’s standards, holds are not to be lifted except for
     extenuating circumstances. We believe it is unlikely that one student can have 21 extenuating
     circumstances. Based on the results of our sample and the average number of financial aid holds
     per student, we believe that CCC’s officials may have been too lenient when determining what
     is an extenuating circumstance.

6.   Approving officials did not always prepare the “completion agreement” section of the appeal
     form. This section is designed to document restrictions or actions the student must take to
     maintain SAP in the future. Without completing this section, CCC has no evidence to show that
     approving officials counseled the students and subjected the students to specific courses and
     credit hour restrictions, per CCC’s standards. This could be an underlying reason why students
     repeatedly fail to maintain SAP.

7.   The basis for approving the waiver did not always apply to the hold the students were appealing.
     We found numerous instances in which CCC officials waived the SAP standards for students
     who had not completed 75 percent of their academic programs based on the rationale that the
     students’ GPAs were satisfactory. GPA has no effect on this type of hold. Approving officials
     may not understand the intent of the hold.

8.   Students received Pell that exceeded specified limits. We found students at Olive-Harvey and
     Harold Washington Colleges who received Pell based on more hours than they were limited to,
     as documented on their appeal forms. If an approving official waives the 150 percent maximum
     because the student has changed majors (educational goals), the appeal form requires the
     approving official to calculate the number of extended hours needed to graduate and the number
     of these hours that could be covered by financial aid. However, only the extended hours needed
     to graduate could be entered into the computer system. The computer system disbursed
     financial aid based upon the number of extended credit hours without regard to financial aid
     limitations. To prevent this from happening, the approving authority should have notified the
     financial aid office of these limitations. Either this did not occur, or the financial aid office did
     not make the adjustment. We did not perform tests at other colleges to determine if this
     occurred, but it is likely. CCC needs procedures to ensure that the colleges are adhering to
     limits on financial aid.

9.   Students did not always use the proper appeal form for the type of hold being appealed. For
     example, students at Truman College used the appeal forms pertaining to the 75 percent
     completion requirement when appealing remedial holds. The calculations to determine the
     number of deficient credit hours are different on each form. As a result, officials may be
     approving appeals based on incorrect calculations of deficient credit hours.

10. Approving officials did not always document their approval on the official appeal forms. For
    example, approving officials at Kennedy-King College documented their approval to lift holds
    on counseling forms instead of the official appeal forms. The audit trail for the decision would
    be lost if the counseling form is lost.

FINAL AUDIT REPORT                                Page 19              ED-OIG-AS, Audit Control Number 05-80016
                                            EXHIBIT A




FINAL AUDIT REPORT   ED-OIG-AS, Audit Control Number 05-80016
                                            EXHIBIT B

                                            Page 1 of 10




FINAL AUDIT REPORT   ED-OIG-AS, Audit Control Number 05-80016
                                            EXHIBIT B

                                            Page 2 of 10




FINAL AUDIT REPORT   ED-OIG-AS, Audit Control Number 05-80016
                                            EXHIBIT B

                                            Page 3 of 10




FINAL AUDIT REPORT   ED-OIG-AS, Audit Control Number 05-80016
                                            EXHIBIT B

                                            Page 4 of 10




FINAL AUDIT REPORT   ED-OIG-AS, Audit Control Number 05-80016
                                            EXHIBIT B

                                            Page 5 of 10




FINAL AUDIT REPORT   ED-OIG-AS, Audit Control Number 05-80016
                                            EXHIBIT B

                                            Page 6 of 10




FINAL AUDIT REPORT   ED-OIG-AS, Audit Control Number 05-80016
                                            EXHIBIT B

                                            Page 7 of 10




                                            Page 8 of 10

FINAL AUDIT REPORT   ED-OIG-AS, Audit Control Number 05-80016
                                            EXHIBIT B



                                            Page 9 of 10




FINAL AUDIT REPORT   ED-OIG-AS, Audit Control Number 05-80016
                                            EXHIBIT B




                                           Page 10 of 10




FINAL AUDIT REPORT   ED-OIG-AS, Audit Control Number 05-80016
                                            EXHIBIT C




FINAL AUDIT REPORT   ED-OIG-AS, Audit Control Number 05-80016
                                     ATTACHMENT




FINAL AUDIT REPORT   ED-OIG-AS, Audit Control Number 05-80016
                                              REPORT DISTRIBUTION LIST
                                                                                                                                       No. of
                                                                                                                                       Copies
Auditee (Original)

Action Official
Greg Woods
Chief Operating Officer
Office of Student Financial Assistance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

Other ED Offices
Deputy Secretary (Marshall Smith) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

Service Director, Institutional Participation and Oversight Service . . . . . . . . . . . . . . . . . . . . . . . . . 1

Office of Public Affairs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

Service Director, Accounting and Financial Management Service . . . . . . . . . . . . . Electronic Copy

Post Audit Group Supervisor . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

Chicago Team Area Case Director . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

Secretary’s Regional Representative, Region V . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

ED-OIG
Inspector General . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Electronic Copy

Deputy Inspector General . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Electronic Copy

Assistant Inspector General for Audit . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Electronic Copy

Assistant Inspector General for Investigation (Acting) . . . . . . . . . . . . . . . . . . . . . . Electronic Copy

Assistant Inspectors General for Operations . . . . . . . . . . . . . . . . . . . . . . Electronic Copies (1 Each)

Director, Advisory and Assistance, Student Financial Assistance . . . . . . . . . . . . . . Electronic Copy

Director, Planning, Analysis, and Management Services . . . . . . . . . . . . . . . . . . . . . Electronic Copy

Audit Services . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

Regional Inspector General for Investigation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Electronic Copy

Regional Inspectors General for Audit . . . . . . . . . . . . . . . . . . . . . . . . . . . Electronic Copies (1 Each)

Region V Audit Office . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
